 Federal Trade Commission
SEMIANNUAL REPORT
  TO C O N G R E S S
Office of Inspector General
April 1, 2010 – September 30, 2010
          Report No. 44
                                                                 In 1938, Michael Lantz won the competition
                                                                 to design two sculptures for the apex
                                                                 building, home of the Federal Trade
                                                                 Commission In Washington, D.C. The widely
                                                                 publicized “Apex Competition“ was the
                                                                 largest American sculpture competition
                                                                 ever held, receiving almost five hundred
                                                                 models from more than two hundred
                                                                 artists.

                                                                 Lantz submitted small models of his designs,
                                                                 each showing a heroic figure straining
                                                                 to control a powerful horse. the final,
                                                                 seventeen foot-long statues were completed
                                                                 in 1942 and installed outside the eastern
                                                                 entrance of the Federal Trade Commission
                                                                 building, where they can be seen today.




T   he Federal Trade Commission (FTC) is an independent agency of the United States government.
    Established in 1914 by the Federal Trade Commission Act (15 U.S.C. §41-58, as amended). The
FTC has two critical goals: protecting consumers and maintaining competition. The FTC’s mission is
to prevent business practices that are anticompetitive or deceptive or unfair to consumers; to enhance
informed consumer choices and public understanding of the competitive process; and to accomplish
these missions without unduly burdening legitimate business activity.

The FTC’s mission is carried out by three bureaus: the Bureau of Consumer Protection, the Bureau
of Competition, and the Bureau of Economics. Work is aided by oﬃces including the Oﬃce of the
General Counsel, the Oﬃce of Inspector General, the Oﬃce of International Aﬀairs, the Oﬃce of the
Executive Director, and seven regional oﬃces. The FTC is headed by a commission composed of ﬁve
commissioners, nominated by the President and conﬁrmed by the Senate, each serving a seven-year
term.

The FTC seeks to ensure that the nation’s markets are competitive, eﬃcient and free from undue
restrictions. The FTC also seeks to improve the operations of the marketplace by ending unfair and
deceptive practices with emphasis on those practices that might unreasonably restrict or inhibit the
free exercise of informed choice by consumers. The FTC relies on economic analysis to support its law
enforcement eﬀorts and to contribute to the economic policy deliberations of Congress, the Executive
Branch and the public.

Many of the FTC’s resources can be accessed through its Web site www.ftc.gov.




This issue of our Semiannual report to Congress features decorative elements from the FTC building.

Cover: “Man Controlling Trade“ sculpture in front of the Federal Trade Commission building 600 Pennsylvania Ave.
N.W. Washington D.C. completed in 1942 by artist Michael Lantz.
                                    UNITED STATES OF AMERICA

                              FEDERAL TRADE COMMISSION
                                     WASHINGTON, D.C. 20580

OFFICE OF INSPECTOR GENERAL




October 29, 2010



A Message From the Inspector General


On behalf of the Federal Trade Commission Oﬃce of Inspector General (OIG), I am pleased to present
our Semiannual Report to Congress for the period ended September 30, 2010.

During the semiannual period, we issued an audit of the FTC’s travel program and issued Management
Challenges for inclusion in the FTC FY 2010 Performance and Accountability Report. Our reports
can be found at www.ftc.gov/oig.

The OIG processed 44 consumer inquiries and allegations of possible wrongdoing. We opened three
new investigations and closed two criminal investigations. We closed 17 complaints during the current
reporting period and referred 18 complaints to appropriate FTC program oﬃces and two to other federal
agencies. Some new complaint ﬁles are still ongoing.

As in the past, FTC management has been responsive in working with the OIG to resolve all proposed
recommendations. I appreciate management’s support and look forward to working with management in
our ongoing eﬀorts to promote economy and eﬃciency in agency programs.




John M. Seeba
Inspector General
Photo above: The Federal Trade Commission building 600 Pennsylvania ave. NW, Washington DC.
Table of Contents


Introduction and Definitions .................................................................................................. 1

Audits and Related Activities ..................................................................................................3

         Completed Audits ............................................................................................................................................... 3

         Peer Review .......................................................................................................................................................... 3

         Audit Resolution ................................................................................................................................................ 5

         Audit Activities Planned or in Progress .................................................................................................... 5

         Other Potential Reviews .................................................................................................................................. 6


Investigative Activities .............................................................................................................. 7

         Investigative Summary ...................................................................................................................................... 7

         Investigations Closed ....................................................................................................................................... 8

         Matters Referred for Prosecution .............................................................................................................. 8


Other Activities ............................................................................................................................9

          Liaison with Other Agencies .......................................................................................................................... 9

         Activities within the Inspector General Community ............................................................................. 9

         Access to Information ..................................................................................................................................... 9


         Review of Legislation ....................................................................................................................................... 9


Table I: Summary of Inspector General Reporting Requirements ..............................10

Table II: Inspector General issued Reports with Questioned Costs .......................... 11

Table III: Inspector General Issued Reports with Recommendations that Funds be
put to Better use ......................................................................................................................... 11

Contacting the Office of Inspector General ....................................................................12
Above: this relief entitled “Agriculture“ was created by artist Concetta Scaravaglione in 1938. It is one of four limestone
reliefs above the entrance doors of the Federal Trade commission building 600 Pennsylvania ave. NW, Washington DC.
Introduction and Definitions




THE MISSION OF THE OFFICE OF INSPECTOR GENERAL IS TO PROMOTE
ECONOMY, EFFICIENCY, AND EFFECTIVENESS BY DETECTING AND
PREVENTING WASTE, FRAUD, AND ABUSE.



In compliance with the Inspector General Act Amendments of 1988 (5 U.S.C. app.), the
Oﬃce of Inspector General (OIG) was established in 1989, as an independent and objective
organization within the FTC.

Under the Inspector General Act, the OIG is responsible for conducting audits and
investigations relating to the programs and operations of the FTC. Audits are conducted
for the purpose of ﬁnding and preventing fraud, waste and abuse and to promote economy,
eﬃciency and eﬀectiveness within the agency. OIG investigations seek out facts related to
allegations of wrongdoing on the part of FTC employees and individuals or entities having
contracts with or obtaining beneﬁts from the agency.

Individuals who wish to ﬁle a complaint about the business practices of a particular company
or entity, or allegations of identity theft, deceptive advertising practices or consumer fraud
should ﬁle a complaint with the FTC Bureau of Consumer Protection.

Complaints to the OIG from the public or from an FTC employee can be made anonymously.
The identity of an FTC employee who reports waste or wrongdoing to the OIG will be
protected from disclosure consistent with provisions of the Inspector General Act. In
addition, the Inspector General Act and the Whistleblower Protection Act prohibit reprisals
against employees for complaining to or cooperating with the OIG.

The OIG is required by law to prepare a semiannual report summarizing the activities of the
Oﬃce during the immediately preceding six-month period. The report is sent to the FTC
Chairman, the President of the Senate, the Speaker of the House and FTC’s appropriating
and authorizing committees. This dual reporting requirement facilitates and ensures the
independence of the Oﬃce. The OIG has a budget of $1,102,900 for ﬁscal year 2010.




                    Semiannual Report to Congress • 1
WE PERFORM THE FOLLOWING SERVICES:



ATTESTATIONS           involve examining, reviewing, or applying agreed-upon procedures
on a subject matter, or an assertion about a subject matter. Attestations can have a broad
range of ﬁnancial or nonﬁnancial objectives as the FTC’s compliance with speciﬁc laws and
regulations, validation of performance against performance measures; or reasonableness of
cost.


PERFORMANCE AUDITS             address the eﬃciency, eﬀectiveness, and economy of the
FTC’s programs, activities, and functions; provide information to responsible parties
to improve public accountability; facilitate oversight and decision making; and initiate
corrective actions as needed.


FINANCIAL AUDITS               provide an independent assessment of whether ﬁnancial
statements are presented fairly in accordance with generally accepted accounting principles.
Reporting on ﬁnancial audits in accordance with Government Auditing Standards also
includes reports on internal control, and compliance with provisions of laws, regulations,
and contracts as they relate to ﬁnancial transactions, systems and processes.


INVESTIGATIONS             are conducted based on alleged or suspected fraud, waste, abuse
or gross mismanagement, employee and contractor misconduct, and criminal and civil
violations of law that have an impact on FTC’s programs and operations. The OIG refers
matters to the U.S. Department of Justice whenever the OIG has reasonable grounds to
believe there has been a violation of federal criminal law. The OIG also identiﬁes fraud
indicators and recommends measures to management to improve the agency’s ability to
protect itself against fraud and other wrongdoing.




                        2 • Semiannual Report to Congress
Audits and Related Activities

Completed Audits

During this period, we issued an audit report on the
Federal Trade Commission travel program.
                                                         We recommended:
AR 10-003 – Audit of the FTC Travel
Program                                                  1.   Reconciliation of the Central Billing Account

The objective of this audit was to determine if the      FMO implement a procedure to identify and
FTC is properly administering its travel program in      review the Centrally Billed Account for potentially
accordance with applicable laws and regulations.         erroneous outstanding charges.

The use of federal travel charge cards was mandated      2. Tracking Reimbursements          of   non-Federal
by the Travel and Transportation Reform Act of 1998      Sponsored Travel
(TTRA) (P.L. 105-264) in an eﬀort to reduce travel
costs and streamline the process of administering        FMO document all reimbursable expenditures for FTC
agency travel programs. All federal employees must       staﬀ for non-Federal source travel, and coordinate
now use federal travel cards for oﬃcial business         with the Designated Agency Ethics Oﬃcial (DAEO)
travel if they travel 6 or more times per year. Since    and the travelers’ Administrative Oﬃcers to ensure
the enactment of TTRA, the number of travel card         follow-up with all sponsors who have not reimbursed
transactions at the FTC increased 94% (from 7,594 to     the agency in a timely manner.
14,722) and dollar volume increased 67% from $1.2
million in FY 2000 to approximately $2 million in FY     3. Timely Cancellation of Travel Cards for Separated
2009.                                                    Employees

Reports by the General Accountability Oﬃce and           FMO should, at least annually, compare the Citibank
agency Inspectors General, with their disclosures of     active cardholders list to a list of active employees
waste, fraud, and abuse, have prompted congressional     maintained by the Human Resources Management
hearings and press reports. Audits have found that       Oﬃce.
employees have used their travel cards for personal
use and have traveled premium class without proper       4. FTC Travel Card Training
authorization. Audits have also found that agencies
have failed to ensure that they claim reimbursement      FMO should coordinate with the Human Resources
for unused airline tickets. These reports have raised    Management Oﬃce and with the Records and Filings
serious concerns regarding the internal control          Oﬃce to ensure that FTC’s training program is in
systems that monitor the use of the more than 2.6        compliance with OMB A-123, Appendix B; 3.4 on
million Government travel cards in circulation.          general training requirements.

We found that overall, the FTC had followed
the policies and procedures promulgated in the           Peer Reviews
Federal Travel Regulations. We found that the
Financial Management Oﬃce (FMO) had a system             The OIG community conducts peer reviews of audit
of internal controls in place to minimize the            functions to ensure quality programs. Another OIG
possibility of unauthorized use of the travel card, to   reported on our audit function in December 2009,
correctly reimburse travelers in accordance with the     and during this reporting period, we performed a
regulations, and to comply with federal regulations      review of another OIG’s audit function.
limiting premium travel. We did find that some
improvements were needed to enhance the controls
over the FTC travel program. Management agreed
with and has initiated corrective actions in response
to the following recommendations.



                           Semiannual Report to Congress • 3
Photo above: “American Eagles“ One of two limestone reliefs located on the side of The Federal Trade Commission building
                                  Created in 1938 by artist Sidney Waugh (1904-1963).




                    4 • Semiannual Report to Congress
External Peer Review of the FTC OIG                           organization’s system of quality control to the extent
                                                              appropriate.
Audit Operations by the Smithsonian
Institution OIG                                            Additionally, we reviewed the NEA OIG’s monitoring
                                                           of an engagement performed by an Independent Public
The most recent external peer review of the FTC Accountant (IPA), in which the IPA served as the principal
Oﬃce of Inspector General was conducted by the auditor. We completed this review and issued our report
Smithsonian Institution (SI) OIG, that issued its report in August 2010. Our report had no recommendations for
dated December 2009. The SI OIG reviewed the system the NEA OIG. In our report we concluded that the NEA
of quality control of the FTC OIG in eﬀect for the two- OIG system of quality control for the audit function was
year period ended March 31, 2009 in accordance with designed to meet the requirements of the quality control
generally accepted government auditing standards standards established by the Comptroller General of the
(GAGAS) and the guidelines established by the Council United States in all material respects and awarded the
of the Inspectors General on Integrity and Eﬃciency. NEA OIG the highest possible peer review rating, i.e., a
Under GAGAS, audit organizations that conduct audits rating of pass.
or attestations in accordance with those standards
must have an appropriate system of quality control
and undergo external peer reviews at least once every Audit Resolution
three years. The SI OIG made no recommendations
in its report. The report concluded that our system of As of the end of this reporting period, all OIG audit
quality control for the audit function was designed to recommendations for reports issued in prior periods
meet the requirements of the quality control standards have been resolved. That is, management and the OIG
established by the Comptroller General of the United have reached agreement on what actions need to be
States in all material respects and awarded the FTC OIG taken.
the highest possible peer review rating, i.e., a rating of
pass.
                                                              Audit Activities Planned or in
                                                              Progress
Peer Review of National Endowment
for the Arts Office of Inspector
                                                              The OIG plans the following audit related activities
General
                                                              during the ﬁrst half of FY 2011:

During this reporting period, we conducted an                 AR 11-001 - Audit of the FTC Financial
external peer review of the audit activities of the           Statements for FY 2010
National Endowment for the Arts (NEA) OIG. The
objective of this external peer review is to determine        The annual financial statement audit is required
whether, for the period under review, the NEA OIG             annually under the Accountability of Tax Dollars Act
audit organization’s system of quality control was            of 2002. We contract out this audit to an independent
suitably designed to provide a reasonable assurance of        public accountant to perform this work. The OIG serves
conforming to GAGAS and to determine whether the              as the Contracting Oﬃcer’s Technical Representative
audit organization complied with its quality control          (COTR) and provides oversight on the contract. The
system.                                                       purpose of the audit is to express an opinion on the
                                                              financial statements of the Federal Trade Commission
We commenced a review of the NEA OIG audit                    for the fiscal year ending September 30, 2010. The
organization and the design of its system of quality          audit will also test the internal controls over financial
control to assess the risks implicit in its audit function.   reporting and assess compliance with selected laws
Based on our assessments, we selected for review audits       and regulations. The audited financial statements
conducted under GAGAS by the NEA OIG that were                are included in the financial section of the agency’s
completed during the year ended March 31, 2010. In            Performance and Accountability Report to be issued on
the course of our review, we examined supporting              or before November 15, 2010.
documentation, conducted interviews, and tested the
adequacy of the design of the quality control system
to provide reasonable assurance of compliance with
GAGAS. Also, we tested compliance with the audit

                                   Semiannual Report to Congress • 5
AR 11-002 – Review of FTC FISMA                              AR 11-003 - FTC Purchase Card
Implementation for FY 2010
                                                             The audit objective is to follow-up on a previously
The Federal Information Security Management Act of           issued report on purchase cards and determine whether
2002 (FISMA) requires an annual evaluation of each           the FTC administers the program in accordance with
agency’s information security program and practices          applicable policies and procedures. The audit will
to determine their eﬀectiveness. The evaluation shall        review transactions completed from October 2009
be performed by the Inspector General or by an               through June of 2010.     Our review will identify the
independent external auditor, as determined by the           purchase card reviewers and purchase card holders
Inspector General.                                           throughout the agency that conducted transactions
                                                             during the period under review. Our focus will be for
                                                             the first six months of FY 2010 and may be expanded
To assist us in conducting this review, we hire an           depending on our initial findings. From our survey
independent consultant to perform                                                 work, we will identify any issues
this work. The OIG acts as the COTR                                               to address, and any further audit
and performs oversight during                                                     work that is necessary to confirm
the execution of this contract. The                                               any potential findings.
review includes evaluating the
adequacy of the FTC’s computer
security program and practices for                                              Other Potential
its major systems. This year,                                                   Reviews
the review is focusing on the
FTC’s general support system
infrastructure,     NIST      Federal                                           During the upcoming year we
Information Processing Standards                                                will also conduct research on the
(FIPS) 199 Security Categorization,                                             following program functions to
the privacy report, and FTC’s Plan of                                           determine the need for further
Action and Milestones to determine                                              audit work of:
the extent to which the agency has
implemented previously agreed                                                   • inventory controls over
upon OIG and other internally                                                    accountable property
identified recommendations. This                                                • case management
will enable the OIG to provide
feedback to management on the
results of its eﬀorts to address program weaknesses.

This year’s FISMA review has also added a new task
order to accommodate the significant changes aﬀecting
the FTC IT environment in two areas: OMB’s proposed
change in reporting metrics that substantially changes
the procedures, level of eﬀort, and technical review areas
required to complete the FY 2010 FISMA review, and
the modernization and revision of the FTC computing
and communications architecture.




                                 6 • Semiannual Report to Congress
     Investigative Activities


The Inspector General is authorized by the IG Act           Of the remaining complaints, the OIG opened three new
to receive and investigate allegations of employee          investigations and 17 complaints were closed with no
misconduct as well as fraud, waste and abuse occurring      further OIG action. Two of the remaining complaints
within FTC programs and operations. Matters of              involved a preliminary OIG inquiry that consumed
possible wrongdoing are referred to the OIG in the form     considerable OIG resources but did not result in a full
of allegations or complaints from a variety of sources,     phase OIG investigation. Two complaints to the OIG
including FTC employees, other government agencies          were referred to another federal or state agency with
and the general public. Reported incidents of possible      appropriate jurisdiction. Two allegations are currently
fraud, waste and abuse can give rise to administrative,     being evaluated to determine whether further OIG
civil or criminal investigations.                           action is warranted.

                                                                            In addition to the complaints described
Investigative Summary                                                       above, the OIG received more than
                                                                            200 complaints from individuals who
During this reporting period, the                                           reported fraudulent misuse of the name
OIG received 44 consumer and other                                          of the FTC and/or impersonations of
inquiries and reports of possible                                           the FTC staﬀ as part of a widespread
wrongdoing. Of the 44 complaints,                                           scam. These consumer complaints were
18 involved issues that fall under                                          tracked by our oﬃce in our ongoing
the jurisdiction of FTC program                                             work with other federal law enforcement
components (e.g., identity theft, credit                                    organizations. However the volume of
repair, etc.). These matters were referred                                  these complaints is not included in the
to the appropriate FTC component for                                        statistical information above.
disposition.




  Following is a summary of the OIG’s investigative activities for the six-month period
  ending September 30, 2010:




                                Cases pending as of 3/31/10 5
                                          PLUS: New Cases 3
                                          Less: Cases Closed (2)
                               Cases Pending as of 09/30/10 6




                                   Semiannual Report to Congress • 7
  Investigations Closed

  During this reporting period, the OIG closed           The agency’s failure to establish adequate controls
  two separate investigations (each opened in a          over the Blackberry distribution program enabled the
  prior reporting period) involving allegations          subject employee to misuse the agency’s Blackberry
  against employees of an FTC contractor. The            devices and distribute the devices to friends and
  first investigation involved allegations that one      associates for non-FTC related use, including alleged
  of the contractor’s employees was stealing FTC         criminal activities.
  information technology (IT) equipment and selling
 it. The second investigation initially focused on       Our investigation further revealed evidence of mis-
 theft allegations against a diﬀerent employee of the    use of FTC Blackberry devices by several other con-
 same FTC contractor. Ultimately, we discovered          tractor employees, including the individual who was
 that several employees of the FTC contractor were       the subject of the first closed investigation described
 engaged in misuse of Government property. The           above. We recommended that agency management
 results of the second investigation were reported to    remove several contractor employees from perfor-
 agency management and several employees of the          mance on the contract and terminate each individu-
 FTC contractor were removed from the FTC contract       al’s access to FTC property. Management acted on
 as a result of the second OIG investigation. The two    our recommendation. Accordingly, we closed the
 investigations are discussed below.                     investigation.

The first investigation that we closed during this re-   To correct the inadequate controls over the Black-
 porting period focused on allegations that a contrac-   berry program, the OIG recommended that agency
 tor employee misappropriated FTC property and           management require that an agency employee ap-
sold it as part of the individual’s outside business     prove distribution of Blackberry devices to individ-
activity. After analyzing agency IT property records,    uals, rather than rely on contractor employees for
the OIG interviewed the contractor employee and          this function. Agency management immediately
gathered additional independent evidence relating        responded to the OIG recommendation, conducted
to the allegations. Because the agency’s controls        an inventory of agency Blackberry devices and ter-
over IT property were incomplete and inadequate,         minated wireless service for devices that were not
the OIG was unable to substantiate the allegations.      properly issued to agency or contractor employees.
We closed this investigation without referral to man-    Management also imposed new control measures as
agement.                                                 recommended by the IG

 We also closed a second investigation during this re-
 porting period. The second investigation involved a
 diﬀerent employee of the same contractor company        Matters Referred for Prosecution
 referred to above. The OIG investigated allegations
 that the second contractor employee was misusing
                                                         During this reporting period the OIG did not refer
 FTC Blackberry devices in connection with criminal
                                                         any new matters to the Department of Justice (DOJ)
 activities. This individual was responsible for dis-
                                                         for consideration of potential criminal action. The
 tribution of FTC Blackberry devices, with no agency
                                                         OIG consulted with DOJ prosecutors regarding two
 staﬀ approval or review. The agency’s inventory con-
                                                         pending OIG investigations.
 trol lapses, mentioned above, constrained our ability
to demonstrate that the subject individual had stolen
                                                         A matter referred to DOJ during a previous report-
FTC Blackberry devices, as alleged. However, avail-
                                                         ing period remains pending at DOJ (Oﬃce of Public
able evidence demonstrated that the subject contrac-
                                                         Integrity), with no final action to date.
tor employee misused FTC Blackberry devices when
she incurred thousands of dollars in wireless charges
for personal use on her FTC Blackberry.




                                8 • Semiannual Report to Congress
   Other Activities
Liaison with Other Agencies                                  program for investigators engaged in undercover
                                                             operations. The training program is available through
                                                             the Inspector General Criminal Investigator Academy in
During this reporting period, our Lead Investigator
                                                             conjunction with the Federal Law Enforcement Training
continued to assist the prosecution of a matter handled
                                                             Center.
by the Assistant United States Attorney in the Western
District of Texas. The successful prosecution and
                                                             In addition, our Lead Investigator is actively participating
conviction of a Legal Services Corporation grantee
                                                             in a Department of Justice led multi-agency task force.
employee who defrauded the Government resulted in a 54
month sentence and order that he repay the Government
$135,000 in restitution.                                     Significant Management Decisions

In conducting criminal investigations, the OIG has sought    Section 5(a)(12) of the Inspector General Act requires
assistance from, and worked jointly with other law           that if the IG disagrees with any significant management
enforcement agencies including Department of Homeland        decision, such disagreement must be reported in the
Security, Federal Protective Service, United States Postal   semiannual report to Congress. Further, Section 5(a)(11)
Service OIG, Federal Bureau of Investigation, U.S. Postal    of the Act requires that any decision by management
Inspection Service, U.S. Secret Service, U.S. Marshals       to change its response to a significant resolved audit
Service, Internal Revenue Service, U.S. Capitol Police, as   finding must also be disclosed in the semiannual report.
well as state and local law enforcement agencies.            For this reporting period there were no significant
                                                             final management decisions made with which the OIG
                                                             disagreed, and management did not revise any earlier
Activities within the Inspector                              decisions on OIG audit recommendations.
General Community
                                                             Access to Information
The FTC IG is an active participant in the Council of the
Inspectors General on Integrity and Eﬃciency (CIGIE), a
                                                             The IG is to be provided with ready access to all agency
council of inspectors general that promotes collaboration
                                                             records, information, or assistance when conducting
on integrity, economy, and eﬃciency issues that transcend
                                                             an investigation or audit. Section 6(b)(2) of the IG Act
individual agencies. The IG is also the vice-chair of the
                                                             requires the IG to report to the agency head, without
Audit Committee of the CIGIE.
                                                             delay, if the IG believes that access to required information,
                                                             records or assistance has been unreasonably refused, or
The FTC Inspector General is also the chair of the audit
                                                             otherwise has not been provided. A summary of each
committee overseeing the audit of the Department of
                                                             report submitted to the agency head in compliance with
Defense Inspector General’s financial statements. In this
                                                             Section 6(b)(2) must be provided in the semiannual
capacity, the IG along with two other senior government
                                                             report in accordance with Section 5(a)(5) of the Act.
oﬃcials provides oversight on the DOD OIG’s financial
                                                             During this reporting period, the OIG did not encounter
statement audit.
                                                             any problems in obtaining assistance or access to agency
                                                             records. Consequently, no report was issued by the IG to
The OIG Audit Manager participates regularly in the
                                                             the agency head pursuant to Section 6(b)(2) of the IG Act.
monthly meeting of the Financial Statement Audit
Network, meetings of the Federal Audit Executive
Committee Information Technology committee; and a            Review of Legislation
working group responding to OMB potential changes in
the form and content of audited financial statements.
                                                             Section 4(a)(2) of the IG Act authorizes the IG to review
Our IG Counsel participates regularly in the monthly         and comment on proposed legislation or regulations
meeting of the Council of Counsel to the Inspectors          relating to the agency or, upon request, aﬀecting the
General (CCIG), as well as contributes to the legal          operations of the OIG. During this reporting period, the
discourse within that Council on matters that are germane    OIG reviewed no legislation.
to the entire IG community.

Our Lead Investigator is actively participating in an OIG-
community working group that is designing a training

                                Semiannual Report to Congress • 9
Table I: Summary of Inspector General Reporting Requirements
Ig Act Reference   Reporting Requirement                                                 Page(s)

Section 4(a)(2)    Review of legislation and regulations                                   9

Section 5(a)(l)    Significant problems, abuses and deficiencies                          N/A

                   Recommendations with respect to significant problems, abuses and
Section 5(a)(2)                                                                           N/A
                   deficiencies

                   Prior significant recommendations on which corrective actions have
Section 5(a)(3)                                                                           N/A
                   not been made

Section 5(a)(4)    Matters referred to prosecutive authorities                             9

Section 5(a)(5)    Summary of instances where information was refused                     N/A

                   List of audit reports by subject matter, showing dollar value of
Section 5(a)(6)                                                                          11-12
                   questioned costs and funds put to better use

Section 5(a)(7)    Summary of each particularly significant report                         3

                          ical tables showing number of reports and dollar value of
                   Statistical
Section 5(a)(8)                                                                            11
                   questione costs
                   questioned
                   Statistical tables showing number of reports and dollar value of
Section 5(a)(9)                                                                            11
                   recommendations that funds be put to better use
                   Summary of each audit issued before this reporting period for which
Section 5(a)(10)   no management decision was made by the end of the reporting            N/A
                   period

Section 5(a)(11)   Significant revised management decisions                                9

                   Significant management decisions with which the inspector general
Section 5(a)(12)                                                                           9
                   disagrees




                              10 • Semiannual Report to Congress
Table II: Inspector General issued Reports with Questioned Costs
                                                                                      Dollar Value
                                                                             Questioned      Unsupported
                                                               Number
                                                                               Costs            Costs

     For which no management decision has been made by
A.                                                                0               0               0
     the commencement of the reporting period

B.   Which were issued during the reporting period                0               0               0

     Subtotals (A + B)                                            0               0               0

     For which a management decision was made during the
C.                                                                0               0               0
     reporting period

     (i) dollar value of disallowed costs                         0               0               0

     (ii) dollar value of the cost not disallowed                 0               0               0

     For which no management decision was made by the end
D.                                                                0               0               0
     of the reporting period

     Reports for which no management decision was made
E.                                                                0               0               0
     within six months of issuance



Table III: Inspector General Issued Reports with Recommendations
that Funds be put to Better use
                                                                                                  Dollar
                                                                                      Number
                                                                                                  Value

     For which no management decision has been made by the commencement of
A.                                                                                       0            0
     the reporting period

B.   Which were issued during this reporting period                                      0            0

                                                                                         0
C.   For which a management decision was made during the reporting period                             0


     (i) dollar value of recommendations that were agreed to by management                            0
                                                                                         0
     - based on proposed management actions                                              0            0
     - based on proposed legislative action                                              0            0

     (ii) dollar value of recommendations that were not agreed to by management          0            0

     For which no management decision has been made by the end of the
D.                                                                                       0            0
     reporting period

     Reports for which no management decision was made within six months of
E.                                                                                       0            0
     issuance
This Page Left Intentionally Blank
                  The FTC’s
     Oﬃce of the
  Inspector General
  We want to hear from you.




 OIG. Working to keep the FTC
eﬃcient, responsible & trustworthy.
Report fraud, waste, abuse and mismanagement to the OIG.
           Call the OIG Hotline (202) 326-2800
                    Email OIG@ftc.gov
                        ftc.gov/OIG
